:~' (" L':;   i: .:. ::~.-.. .   -"' ,     ' l' "
                                 .: .! : •.;. - .! .:,:. ~., '                             '. j .~.                              -....•:.
                                                                                                                                       f~   • ;:   .1.' ;

 10 0 0 l2: :S Ea




                                         PASSENGE~ COlU'
                                                            ORATXON
                NA'l'IONAL .RAlLROAD            J< GE NE RA L
                         OF FI CE OF INSl'ECTO          NS
                                                   ATIO
                           OFFICE Of ! INVESTIG
                                     Tl VE CL OS IN G RE PO RT
                        IN VE Sl1 GA
                                                              E NUMBER: 04-41
                        T     h   o   ft.CAS
                        ~ ~ ~
TITLE:        .
                                                               SA    .
DATEOFRE UT: P A lil lD JW :_ S S A an d _ _ _
           PO
R E I'O R Tl >R E
                                                                   0N&
                                                 M lD RECOMMENJ)8T1
1. FINDINGS OF FACT
                       ]'
A. FJNl.lTNQS OF [lAC,.                                                                                                             al
                                                                                                           o of Jnspe cto.· Gener
                                                       ("L  SA
                                                      Attelld~nt  ")   pa cket reviews by tho O[fi<                         to
 I. During Lend Sorvice                                                                                   els 1Jc10ogwg
                       fic  e  of   Inv esl fga  tiolls   ("o  t") , It was determined lhat paoucknts. TllC packets had beell
                    Of                                                   w)dc~ roportQd salM
                                                                                                  am
                              fomler LSA, had contruned System ("TPMS") Clerk wl.!o had pmvio\.sly been
                                                                     ent
                          (\ TraIn Provisioll Managem trak funds for personal gain.
                                             ign  ed to   ret ain  Am
        iWIJJicilted in actlvlrles des
                                                                                                                    ed sales amOl1llts
                                                ket s  be  lon  gin  g  to  .I   h  a t conlaiued under .report
 2. 01 found eight (8) sol
                                       .. pac
        totaling $3  ,06  8.
                                                                                                              ainst~n March I,
                                       est iga  tion,   Am    lw k   Iss ued   Q·chninistrative charges ag
  3. As nresult ofOl's inv
         Z004.
                                                                                          04.
                 m ift  ed    hi  s  resign  atio n to AMra!< on March 3, 20
  4. _s ub
                                                                                         o1llayelteck.
              trak wi thh   eld  $1, 1)6 810   vacation pay fr om _s iin
  S. Am
                                                                                                                Office.
                                           ref ou  od   .       's  C~~  e  to  tbe Unllcd States Attorney's
   6. On August 31, 2005,01                                                                                             .
                                                                       y's Offic~ deolined prosec
                                                                                                      lltion of •
                                       Un  ited   Stu tes  Al  lor no
   7. On June 1,2006. the                                                                                                              .
                                                                                          tico agrecd  to pursue prosecUlion •
                                         tll~Stnte's                   At  tol l\oy's Of
                                                                                                                         er 30, 2006.
   8. On October 26, ;2006, Gmnd JUlY o.!'tho Circuit COUlt of _C ou nt y on Octob
        ~8S indicted by the
                                                                                                                    culI Coun o f _
                                            _  "'a . co   nv ict cd   of  Th  eft  by a pica of guilly in the Cir d to pay Amtrak
   9. Oil March 23 ,2 00 8, one year of court supervision . •                                      was also ordclo
                                                                                                                  .
         COMt    y and   scu   tou ced   \0
                           the  all lou ul  of  $8 00  .
         ",~ tllution .in
                                                                                                                   $800.
                                           oiv ed   a  ch  eck   fr   o   m     . made j)ayable 10 Amtrak for
    10.. On April 7,2008,01            rec



      I. Close cilse . .




       CloS!n8 ROjlolt 04-4l.dooL
                                                                                                              I~TL ~
                                                                                                                      .,    ,
                                                                                                               ; CJf..JD6Er i
                                                                                                                                     ·~..l,~'
                                                                                                                                            .j
                                                                                                              I
                                                                                                               .       .   ....~.•-
